CERTIFICATE OF WORD COUNT
NO. TBD
James Kerr Schlosser,
Petitioners),
v.
United States of America,
Respondents).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the James Kerr Schlosser
Petition for Writ of Certiorari contains 8896 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'fi'eDeus
October 18, 2019

SCP Tracking: Schlosser-1828 Krystle Drive-Cover White

